                                                                                      Attachment 1
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR

                                                                               FEB 1 1 2013
                                       System Review Report

The Honorable Harold W. Geisel
Deputy Inspector General
U.S. Department of State and the Broadcasting Board of Governors
Office of Inspector General
Room 8100, SA-3
2201 C Street, NW.
Washington, DC 20520-0308

Dear Mr. Geisel:

        We have reviewed the system of quality control for the audit organization U.S.
Department of State and the Broadcasting Board of Governors Office of Inspector General (DOS
OIG) in effect for the year ended September 30, 2012. A system of quality control encompasses
the DOS OIG organizational structure and the policies adopted and procedures established to
provide it with reasonable assurance of conforming to Generally Accepted Government Auditing
Standards (GAGAS). The elements of quality control are described in GAGAS. DOS OIG is
responsible for designing a system of quality control and complying with it to provide DOS OIG
with reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. Our responsibility is to express an opinion on the
design of the system of quality control and DOS OIG compliance therewith based on our review.

        Our review was conducted in accordance with GAGAS and guidelines established by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE). During our review, we
interviewed DOS OIG personnel and obtained an understanding of the nature of DOS OIG's
audit organization and design of its system of quality control sufficient to assess the risks
implicit in its audit function. Based on our assessments, we selected engagements and
administrative files to test for conformity with professional standards and compliance with DOS
OIG's system of quality control. The engagements selected represented a reasonable cross-
section of DOS OIG's audit organization, with emphasis on higher-risk engagements. Before
concluding the review, we reassessed the adequacy of the scope of the peer review procedures
and met with DOS OIG's management to discuss the results of our review. We believe that the
procedures we performed provide a reasonable basis for our opinion.

        In performing our review, we obtained an understanding of the system of quality control
for DOS OIG's audit organization. In addition, we tested compliance with DOS OIG's quality
control policies and procedures to the extent we considered appropriate. These tests covered the
application of DOS OIG's policies and procedures on selected engagements. Our review was
based on selected tests; therefore, it would not necessarily detect all weaknesses in the system of




                               Office of Inspector General I Washington, DC
quality control or all instances of noncompliance with it. Enclosure 1 to this report identifies the
DOS OIG engagements that we reviewed.

        There are inherent limitations in the effectiveness of any system of quality control, and
therefore noncompliance with the system may occur and not be detected. Projection of any
evaluation of these systems to future periods is subject to the risk that the system may become
inadequate because of changes in conditions, or because the degree of compliance with the
policies and procedures may deteriorate.

        In our opinion, the system of quality control for the DOS OIG audit organization in effect
for the year ended September 30, 2012, has been suitably designed and complied with to provide
DOS OIG with reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. Federal audit organizations can receive a peer
review rating of "pass," "pass with deficiencies," or "fail"; we give DOS OIG a rating of "pass."
Enclosure 2 to this report contains DOS OIG's response to this report. As is customary, we have
issued a letter, dated February 7, 2013, that sets forth findings that were not considered to be of
sufficient significance to affect our opinion expressed in this report.

        The National Aeronautics and Space Administration Office of Inspector General (NASA
OIG) performed the prior peer review for the year ended September 30, 2009. In its opinion, the
system of quality control for DOS OIG's audit organization was not consistently followed by
DOS OIG's Middle East Region Operations (MERO). Consequently, NASA OIG issued DOS
OIG a rating of "pass with deficiencies." As a result, all open MERO audit projects as of October
1, 2009, were converted to evaluations until MERO could be merged with DOS OIG's Office of
Audits on August 1, 2011. While MERO has now resumed performing audits, no audits had been
completed or reports issued as of the final date of our review period. Therefore, we were unable
to review any MERO projects.

        In addition to reviewing its system of quality control to ensure adherence with GAGAS,
we applied certain limited procedures in accordance with CIGIE guidance related to DOS OIG's
monitoring of engagements performed by independent public accountants (IP A) under contracts
in which the IP A served as the principal auditor. It should be noted that the monitoring of
engagements performed by IPAs is not an audit and therefore is not subject to the requirements
of GAGAS. The purpose of our limited procedures was to determine whether DOS OIG had
controls to ensure the IP As performed contracted work in accordance with professional
standards. However, our objective was not to express an opinion, and accordingly we do not
express an opinion on DOS OIG' s monitoring of work performed by IPAs.

       If you have any questions, please contact either Kimberly Elmore, Assistant Inspector
General for Audits, Inspections, and Evaluations, or me at 202-208-5745.



                                          ~y, '                 ¥Jad
                                              M~~
                                              Deputy Inspector General
Enclosures
                                                 2
                                                                                   Enclosure 1



                              SCOPE AND METHODOLOGY

         We tested compliance with the DOS OIG audit organization's system of quality control
to the extent we considered appropriate. These tests included a review of 7 of 26 audit and
attestation reports issued during the period October 1, 2011, through September 30, 2012, and
the two semiannual reporting periods October 1, 2011, through March 31, 2012, and April 1,
2012, through September 30, 2012. We also reviewed two internal quality control reviews
performed by DOS OIG.

        In addition, we reviewed DOS OIG's monitoring of engagements performed by
independent public accountants (IPAs) in which the IP A served as the principal auditor during
the period October 1, 2011, through September 30,2012. During the period, DOS OIG
contracted for the audit of its agency's fiscal year 2011 financial statements. DOS OIG also
contracted for certain other engagements that were to be performed in accordance with GAGAS.

Audit and Attestation Engagements Reviewed
  Report No.        Report Date     Report Title
                                    Audit ofthe Department of State Process To Award the
 AUD-SI-12-17         12/30/11      Worldwide Protective Services Contract and Kabul
                                    Embassy Security Force Task Order
                                    Independent Review of the U.S. Department of State
AUD-FM-12-19          01/31/12      Accounting of FY 2011 Drug Control Funds and Related
                                    Performance
                                    Audit of Broadcasting Board of Governors Compliance
AUD-IB-12-32          03/28/12
                                    With the Improper Payments Information Act
                                    Audit ofDepartment of State Access Controls for Major
 AUD-IT-12-44         09/30/12
                                    Applications

IPA Monitoring Projects Reviewed
  Report No.        Report Date     Report Title
                                    Independent Auditor's Report on the U.S. Department of
AUD-FM-12-05          11/15/11
                                    State 2011 and 2010 Financial Statements
                                    Audit of International Boundary and Water Commission
                                    Construction Contract With Inuit Services, Inc., Using
AUD-CG-12-10          11/30/11
                                    Funds Provided by the American Recovery and
                                    Reinvestment Act
                                    Audit of Funding Provided by the American Recovery and
AUD-CG-12-25          03/27/12      Reinvestment Act for the Bureau of Consular Affairs
                                    Passport Facilities Project




                                              3
